U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 24, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Jorge L. Medina v. William P. Barr, Attorney General,
S.CtNo. 19-287

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 30,
2019, and placed on the docket on September 4, 2019. The government's response is due on
October 4, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 4, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0287
MEDINA, JORGE L.
WILLIAM P. BARR, ATTORNEY GENERAL

JOSEPH GREENLEE
FIREARMS POLICY COALITION
1215 K STREET
17TH FLOOR
SACRAMENTO, CA 95814
970-485-3303
JOSEPHGREENLEE@GMAIL.COM
ALAN GURA
GURA PLLC
916 PRINCE STREET
SUITE 107
ALEXANDRIA, VA 22314
703-835-9085
ALAN@GURAPLLC.COM
JASON D. WRIGHT
WRIGHT LAW FIRM
40 FULTON STREET
23RD FLOOR
NEW YORK, NY 10039
212-683-4892
JWRIGHT@JASONWRIGHTESQ.COM

